United States Department of Agriculture
Office of Inspector General




Agreed-Upon Procedures: Employee
Benefits, Withholdings, Contributions,
and Supplemental Headcount Reporting
Submitted to OPM




                                          Audit Report 11401-0006-11
                                          September 2013
                                         Agreed-Upon Procedures: Employee Benefits,
                                         Withholdings, Contributions, and Supplemental
                                            Headcount Reporting Submitted to OPM

                                                      Audit Report 11401-0006-11
What Were OIG’s
Objectives

To perform procedures to
assist OPM in (1) assessing
the reasonableness of
retirement, health benefits, and   OIG performed agreed-upon procedures for
life insurance withholdings        assessing information reported by USDA’s
and contributions, as well as
enrollment information
                                   National Finance Center.
submitted via the
Supplemental Semiannual
                                   What OIG Found
Headcount Report, and (2)
identifying errors relating to
                                   The Department of Agriculture’s (USDA) National Finance Center
processing and distributing
                                   (NFC) reports Federal employee benefits, enrollment information, and
CFC payroll deductions.
                                   Combined Federal Campaign (CFC) deductions to the Office of
                                   Personnel Management (OPM). Reported information includes
What OIG Reviewed
                                   retirement, health benefits, and life insurance withholdings and
We performed agreed-upon           contributions, agency-submitted headcounts, and payroll deductions
audit procedures as required       relating to the CFC. In applying agreed-upon audit procedures, we
on Federal employee benefits,      identified differences through calculations, analysis, and comparisons.
enrollment information, and        For instance, we identified that headcounts for military deposit and
CFC payroll deductions, as of      salary offsets often differed by more than 2 percent, and that reported
August 31, 2013. Our review        counts relating to certain types of payers for health, life insurance,
included information               and/or retirement benefits differed as well. We also found that total
submitted for the Departments      headcounts were sometimes misallocated, and an inconsistency exists
of Agriculture, Commerce,          in counts for those enrolled with no deductions for retirement and
Homeland Security, Housing         other counts. NFC stated that scheduled programming modifications
and Urban Development,             will correct the majority of the issues identified.
Justice, Labor, and the
Treasury; as well as the           Additionally, we identified differences related to CFC deductions for
Agency for International           employees at duty stations with no CFC, accounting code differences,
Development; and Small             and instances of incorrect CFC pledge form use. Generally, NFC
Business Administration.           attributed the CFC errors to manual processes and human error,
                                   including by personnel at various agencies. NFC noted the low error
What OIG Recommends                rate overall, and stated it was responsible for processing very few of
                                   the transactions identified as differences.
We do not make any
recommendations in this            Our sample document review disclosed 8 errors for benefits entered
report.                            into the system by entity staff. Furthermore, we were unable to verify
                                   entries for 151 personnel documents we tested because entities’
                                   personnel officers were unable to locate the documents. However, to
                                   ensure that information from the system was accurate, we performed
                                   any applicable calculations for salary, retirement, life, and health
                                   insurance. We noted no exceptions.
                          United States Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250


September 27, 2013

The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Office of Inspector General
Theodore Roosevelt Federal Building
1900 E Street NW, Room 6400
Washington, D.C. 20415-0001

Subject: Agreed-Upon Procedures: Employee Benefits, Withholdings, Contributions, and
         Supplemental Semiannual Headcount Reporting Submitted to the Office of Personnel
         Management


Dear Mr. McFarland:

This report presents the results of the Agreed-Upon Procedures performed on the subject
information processed by the Department of Agriculture’s Office of the Chief Financial
Officer/National Finance Center as of August 31, 2013.

Our review included information for the following entities, listed in Appendix A of the Office of
Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Statements, dated September 4, 2007, and amended by OMB Memorandum 09-33, dated
September 23, 2009: Department of Agriculture, Department of Commerce, Department of
Homeland Security, Department of Housing and Urban Development, Department of Justice,
Department of Labor, Department of the Treasury, Agency for International Development, and
Small Business Administration.

This review was performed as required by OMB and in accordance with applicable generally
accepted government auditing standards and the Statements of Standards for Attestation
Engagements established by the American Institute of Certified Public Accountants.

If you have questions, please contact me at (202) 720-6945, or have a member of your staff
contact Ernest M. Hayashi, Director, Farm, Trade, Research, and Environment Division, at
(202) 720-2887.

Sincerely,



Gil H. Harden
Assistant Inspector General for Audit

cc:
Dennis D. Coleman, Chief Financial Officer, Office of Personnel Mangement
Table of Contents

Independent Auditors’ Report................................................................................1
Abbreviations ...........................................................................................................3
Exhibit A: Procedures Performed and Results .....................................................4
Exhibit B: Combined Federal Campaign (CFC) Deductions for Employees
With No Local CFC Campaign ............................................................................19
Exhibit C: Name, Principal Combined Fund Organization (PCFO) and
Address Differences ...............................................................................................21
Exhibit D: Accounting Code Differences .............................................................23
Exhibit E: Incorrect Combined Federal Campaign (CFC) Pledge Forms ......47
Independent Auditors’ Report 

To:     Honorable Patrick E. McFarland
        Inspector General
        U.S. Office of Personnel Management


We have performed the procedures described in exhibit A, which were agreed to by the Inspector
General and Chief Financial Officer of the U.S. Office of Personnel Management (OPM), solely
to assist OPM with respect to the employee withholdings and employer contributions reported by
the Department of Agriculture’s Office of the Chief Financial Officer/National Finance Center
(OCFO/NFC) on the Standard Form 2812, Report of Withholdings and Contributions for Health
Benefits, Life Insurance, and Retirement, and OPM 1523, Supplemental Semiannual Headcount
Report,1 as of August 31, 2013. The reports submitted by OCFO/NFC included information for
the following entities listed in Appendix A of the Office of Management and Budget (OMB)
Bulletin 07-04, Audit Requirements for Federal Financial Statements, as amended:2 Department
of Agriculture, Department of Commerce, Department of Homeland Security, Department of
Housing and Urban Development, Department of Justice, Department of Labor, Department of
the Treasury, Agency for International Development, and Small Business Administration.
Furthermore, we performed agreed-upon procedures to assist OPM with identifying errors
relating to processing and distributing Combined Federal Campaign payroll deductions.

The engagement to apply the Agreed-Upon Procedures was performed in accordance with
applicable generally accepted government auditing standards and the statement of standards for
attestation engagements established by the American Institute of Certified Public Accountants.
The sufficiency of the procedures is solely the responsibility of the Inspector General and the
Chief Financial Officer of OPM. Consequently, we make no representation regarding the
sufficiency of the procedures described either for the purpose for which this report has been
requested or for any other purpose. The results of the engagement are detailed in exhibits A
through E.

We are not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
and retirements; the Combined Federal Campaign; and the headcount reports prepared by
OCFO/NFC. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to
you.



1
  We selected our samples from pay period (PP) 17 (August 12, 2012, through August 25, 2012, paid September 6,
2012), PP 26 (December 16, 2012, through December 29, 2012, paid January 10, 2013), and PP 3 (February 10,
2013, through February 23, 2013, paid March 7, 2013). PPs 17 and 3 coincided with the OPM 1523, Supplemental
Semiannual Headcount Report.
2
  OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements, September 4, 2007, was amended by
OMB Memorandum 09-33, Technical Amendments to OMB Bulletin 07-04, Audit Requirements for Federal
Financial Statements, September 23, 2009.

                                                                              REPORT 11401-0006-11           1
This report is intended solely for the use of the Inspector General and Chief Financial Officer of
OPM and should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes.




Gil H. Harden
Assistant Inspector General for Audit

September 16, 2013




2    REPORT 11401-0003-11
Abbreviations

CFC ............................. Combined Federal Campaign
CSRS ........................... Civil Service Retirement System
FEGLI ......................... Federal Employees’ Group Life Insurance
FEHB .......................... Federal Employees Health Benefits
FERS ........................... Federal Employees’ Retirement System
FERS-RAE .................. Federal Employees Revised Annuity Employees System
HUD ............................ Department of Housing and Urban Development
NFC ............................. National Finance Center
OCFO .......................... Office of the Chief Financial Officer
OCFCO ....................... Office of CFC Operations
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OPF ............................. Official Personnel File
OPM ............................ U.S. Office of Personnel Management
PP ................................ Pay Period
RITS ............................ Retirement and Insurance Transfer System
SF ................................ Standard Form
TMGT ......................... Table Management
USDA.......................... Department of Agriculture




                                                                             REPORT 11401-0003-11   3
Exhibit A: Procedures Performed and Results
                                                                              Exhibit A – Page 1 of 15

    1. Compare the Retirement and Insurance Transfer System (RITS) submission data to the
       payroll information by performing the following procedures (note: for cross-servicing
       agencies, if the internal controls are the same for all agencies serviced, it is only
       necessary to perform this procedure for one agency):

       a. Recalculate the mathematical accuracy of the payroll information.

       b. Recalculate the mathematical accuracy of each RITS submission for the payroll
          information selected in step 1.a.

       c. Compare the employee withholding information at the aggregate level for retirement,
          health benefits, and life insurance (as adjusted for reconciling items) shown on the
          payroll information obtained in step 1.a. to the related amounts shown on the RITS
          submission for the corresponding period.

       Report any differences for each of the retirement, health benefits, and life insurance
       (categories) for step 1.c. that are over 1 percent of the aggregate amount reported for each
       of the three categories. Obtain a management official name, an explanation, telephone
       number, and an email address for the differences above the 1 percent threshold.

       Results

       There were no differences over 1 percent.

    2. See sub-steps below.

       a. Randomly select a total of 25 individuals (from each Department) who were in the
          payroll system for all 3 of the RITS submissions selected above that meet all of the
          following criteria. In addition, randomly select five individuals (from each
          Department) who are under Federal Employees Revised Annuity Employees System
          (FERS-RAE) to test that their FERS-RAE contribution rate was calculated correctly:

            ·    Covered by the Civil Service Retirement System (CSRS) or the Federal
                 Employees’ Retirement System (FERS);

            ·    enrolled in the Federal Employees Health Benefits (FEHB) Program;

            ·    covered by Basic Life Insurance; and

            ·    covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
                 optional coverage (Option A, B, or C).



4    REPORT 11401-0006-11
Exhibit A: Procedures Performed and Results
                                                                             Exhibit A – Page 2 of 15

    b. Obtain the following documents, either in electronic or hard copy format, from the
       Official Personnel File (OPF) for each individual selected in step 2.a. Hard copies
       can be originals or certified copies.

       ·      All Notifications of Personnel Actions Standard Form-50 (SF) covering pay
              periods (PP) in the RITS submissions chosen;

       ·      the Health Benefits Election Form (SF-2809) covering the PPs in the RITS
              submissions chosen or, if applicable, obtain a report (via the agency personnel
              office) from the agency’s automated system that allows participants to change
              benefits, (e.g., Employee Express), for any health benefits transactions in the
              system for the individuals selected in step 2.a. (Note: a new SF-2809 is needed
              only if an employee is changing health benefit plans. Therefore, the form could
              be many years old). Also for health benefits, compare the date of transaction with
              the date on the certified copy of the SF-2809 or the agency’s automated system
              report obtained above to identify whether the health benefit information to be
              used in step 2.f. covers the PPs in the RITS submissions chosen; and

       ·      the Life Insurance Election Form (SF-2817) covering the PPs in the RITS
              submission chosen. (Note: a new SF-2817 is needed only if an employee is
              changing life insurance coverage; therefore, the form could be many years old).

    Results

    Personnel officers were not able to locate the following 139 documents; however, we
    performed the calculations for salary, retirement, life and health insurance in these cases
    to ensure that information from the Office of the Chief Financial Officer/National
    Finance Center (OCFO/NFC) system was accurate.

                     Entity                          SF-50           FEHB              FEGLI
     Department of Agriculture                         0               4                  3
     Agency for International Development              6              17                  8
     Department of Commerce                            3               3                  1
     Department of Justice                             5               6                  2
     Department of Labor                               5               8                  0
     Department of Homeland Security                   1               3                  3
     Department of Housing and Urban                  15               5                 17
     Development
     Small Business Administration                      1               13                 2
     Department of the Treasury                         5                2                 1
     Total                                             41               61                37


                                                                  REPORT 11401-0006-11            5
Exhibit A: Procedures Performed and Results
                                                                           Exhibit A – Page 3 of 15

     c. For each individual selected in step 2.a., compare the base salary used for payroll
        purposes and upon which withholdings and contributions generally are based to the
        base salary reflected on the employee’s SF-50. Report any differences resulting from
        this step and obtain management’s explanation for the differences.

     Results

     We noted one Small Business Administration employee’s SF-50, reflecting the
     employee’s within grade pay increase, was not processed timely. Agency personnel were
     not able to provide an explanation. No other exceptions were noted.

     d. For Retirement for each individual selected in step 2.a., compare the retirement plan
        code from the employee’s SF-50 to the plan code used in the payroll system. Report
        any differences resulting from this step and obtain management’s explanation for the
        differences.

     Results

     No exceptions were noted.

     e. For each individual selected in step 2.a., calculate the retirement amount to be
        withheld and contributed for the plan code from the employee’s SF-50, by
        multiplying the base salary from the employee’s SF-50 by the official withholding
        and contribution rates required by law. Compare the calculated amounts to the actual
        amounts withheld and contributed for the retirement plan. Report any differences
        resulting from this step and obtain management’s explanation for the differences.

     Results

     No exceptions were noted.

     f. For health benefits for each individual selected in step 2.a., compare the employee
        withholdings and agency contributions to the official subscription rates issued by
        OPM for the plan and option elected by the employee, as documented by a Health
        Benefits Election Form (SF-2809) in the employee’s OPF or automated system that
        allows the participant to change benefits (e.g., Employee Express). Report any
        differences resulting from this step and obtain management’s explanation for the
        differences. The health benefits rates can be found on OPM’s website at
        http://www.opm.gov/insure/health/rates/index.asp.




6   REPORT 11401-0006-11
Exhibit A: Procedures Performed and Results
                                                                           Exhibit A – Page 4 of 15

    Results

    No exceptions were noted.

    g. For life insurance for each individual selected in step 2.a., confirm that Basic Life
       Insurance was elected by the employee by inspecting the Life Insurance Election
       Form (SF-2817) documented in the employee’s OPF. Report any differences
       resulting from this step and obtain management’s explanation for the differences.

    Results

    We found three FEGLI codes in the payroll system that did not match the basic coverage
    elected on the SF-2817—one each at Small Business Administration, Department of the
    Treasury, and Agency for International Development. Small Business Administration
    officials confirmed the error and stated that the employee will be notified to complete a
    new SF-2817. In addition, Department of the Treasury personnel noted the discrepancy
    on the employee’s SF-2817. However, agency personnel at the Agency for International
    Development did not respond to our request to confirm their error.

    h. For each individual selected in step 2.a., calculate the withholding and contribution
       amounts for Basic Life Insurance using the following:

       ·      For employee withholdings: round the employee’s annual base salary up to the
              nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply
              by the rate required by law. The life insurances rates are on OPM’s website at
              http://www.opm.gov/insure/life/rates/index.asp.

       ·      For agency contributions: divide the employee withholdings calculated above by
              two.

              Compare the calculated employee withholdings and agency contributions to the
              actual amounts withheld and contributed for the Basic Life Insurance. Report any
              differences resulting from this step and obtain management’s explanation for the
              differences.

    Results

    No exceptions were noted.

    i. Also, for life insurance for each individual selected in step 2.a., compare optional
       coverage elected as documented on the SF-2817 in the employee’s OPF to the
       optional coverage documented in the payroll system. Report any differences resulting
       from this step and obtain management’s explanation for the differences.
                                                                 REPORT 11401-0006-11           7
Exhibit A: Procedures Performed and Results
                                                                             Exhibit A – Page 5 of 15

     Results

     We found three FEGLI codes in the payroll system that did not match the optional
     coverage elected on the SF-2817 – two at the Department of Agriculture and one at the
     Department of the Treasury. Agency personnel at the Department of Agriculture
     confirmed one of the errors. However, we did not receive a response to our requests to
     confirm the remaining two errors.

     j. For each individual selected in step 2.a., calculate the withholding amounts for
        optional life insurance using the following:

        ·      For Option A: locate the employee’s age group using the age groups provided for
               Option A in the FEGLI Program Booklet. The withholding amount to be used is
               the rate listed in the FEGLI Program Booklet for that age group. Compare the
               calculated amount to the amount withheld for Option A Life Insurance. Report
               any differences resulting from this step and obtain management’s explanation for
               the differences.

     Results

     No exceptions were noted, other than the Department of Agriculture error noted in 2i
     above.

        ·      For Option B: inspect the SF-2817 to obtain the number of multiples chosen for
               Option B. Locate the employee’s age group using the age groups provided for
               Option B in the FEGLI Program Booklet. Round the employee’s annual rate of
               basic pay up to the next 1,000, divide it by 1,000, and then multiply it by the rate
               for the respective age group. Multiply this amount by the number of multiples
               chosen for Option B Life Insurance. Compare the calculated amount to the
               amount withheld for Option B Life Insurance. Report any differences resulting
               from this step and obtain management’s explanation for the differences.

     Results

     No exceptions were noted, other than the Departments of Agriculture and Treasury errors
     noted in 2i above.

        ·      For Option C: inspect the SF-2817 to obtain the number of multiples chosen for
               Option C. Locate the employee’s age group using the age groups provided for
               Option C in the FEGLI Program Booklet. Multiply the rate for the age group by
               the number of multiples chosen for Option C Life Insurance. Compare the
               calculated amount to the amount withheld for Option C Life Insurance. Report


8   REPORT 11401-0006-11
Exhibit A: Procedures Performed and Results
                                                                             Exhibit A – Page 6 of 15

     any differences resulting from this step and obtain management’s explanation for the
     differences.

     Results

     No exceptions were noted, other than the Department of the Treasury error noted in 2i
     above.

  3. Randomly select a total of 10 employees (from each Department) who have no health
     benefits withholdings from the payroll information corresponding to the 3 RITS
     submissions selected above and perform the following for each employee selected.

     a. Obtain SF-2809s covering the PPs in the RITS submissions chosen, either in
        electronic or hard copy format, from the selected employee’s OPF or, if applicable,
        obtain a report (via the agency personnel office) from the agency’s automated system
        that allows participants to change benefits, (e.g., Employee Express), for any health
        benefit transactions in that system for the individuals selected. Hard copies can be
        originals or certified copies. Inspect the documentation (that is, SF-2809 or the
        agency’s system-generated report) to identify whether health benefits coverage was
        not elected. This can be identified in the following ways:

         ·     Absence of an SF-2809 in the OPF and no election of coverage made through the
               agency’s automated system that allows participants to change benefits (e.g.,
               Employee Express); or

         ·     an SF-2809 in the OPF with Section E checked (indicating cancellation of
               coverage) an no later election of coverage through the agency’s automated system
               that allows participants to change benefits (e.g., Employee Express); or

         ·     cancellation of coverage through the agency’s automated system that allows
               participants to change benefits (e.g., Employee Express) and no later election
               coverage with an SF-2809.

     b. Compare the result in step 3.a. to the RITS submissions. Report any differences
        resulting from this step and obtain management’s explanation for the differences.

     Results

     Personnel officers could not locate two of the SF-2809 in the employees’ OPFs (one each
     at the Departments of Agriculture and Homeland Security). Additionally, for one
     Agency for International Development employee, we noted that health insurance had
     been elected, however the payroll system showed coverage was waived. As a result, no

                                                                     REPORT 11401-0006-11         9
Exhibit A: Procedures Performed and Results
                                                                            Exhibit A – Page 7 of 15

        health deductions were made for the periods under review. Agency for International
        Development personnel did not respond to our request to confirm the error. In addition,
        for another employee with the Agency for International Development, we noted a status
        of eligible pending in the payroll system from December 16, 2012, through
        February 23, 2013. According to the FEHB Handbook, the employee must complete an
        election form within 60 days of becoming eligible. Agency personnel confirmed the
        error. No other exceptions were noted.

     4. Randomly select a total of 10 employees (from each Department) who have no life
        insurance withholdings from the payroll information corresponding to the 3 RITS
        submissions selected above and perform the following for each employee selected.

        a. Obtain the SF-2817s covering the PPs in the RITS submissions chosen, either in
           electronic or hard copy format, from the selected employee’s OPF. Hard copies can
           be originals or certified copies. Inspect the SF-2817 to identify that the employee
           waived or cancelled Basic Life Insurance coverage.

        b. Compare the results in step 4.a. to the RITS submissions. Report any differences
           resulting from this step and obtain management’s explanation for the differences.

        Results

        The personnel officers could not locate 10 of the forms (four at the Department of
        Housing and Urban Development, three at the Department of the Treasury, and one each
        at the Department of Homeland Security, the Small Business Administration and the
        Agency for International Development). We also identified one instance at the Small
        Business Administration where the basic life insurance election on the SF-2817 did not
        match the payroll system, which indicated “ineligible.” As a result, premiums were not
        being withheld from the employee’s salary. Agency personnel provided documentation
        to show that the error was later corrected. Further, we identified one instance at the
        Department of Justice where basic life insurance was waived on the SF-2817, but the
        payroll system indicated the employee was ineligible. This difference however, did not
        result in erroneous withholdings. No other exceptions were noted.

     5. Calculate the headcount reflected on the September 2012 and March 2013 Semiannual
        Headcount Report selected, as follows.

            Obtain existing payroll information (from step 1.a.) supporting each Supplemental
            Semiannual Headcount Report. If existing payroll data are not available, obtain a
            payroll system query that summarized detailed payroll data supporting each
            Supplemental Semiannual Headcount Report, as follows:

            ·     Benefit Category (see Supplemental Semiannual Headcount Report),

10      REPORT 11401-0006-11
Exhibit A: Procedures Performed and Results
                                                                          Exhibit A – Page 8 of 15

       ·      dollar amount of withholdings and contributions,

       ·      number enrolled (deductions made/no deductions),

       ·      central personnel data file code, and

       ·      aggregate base salary.

    a. Recalculate the headcount reflected on each Supplemental Semiannual Headcount
       Report. If an electronic file is not available, a suggested method of recalculating the
       headcount is as follows: (1) estimate the number of employees per payroll register
       page by counting the employees listed on several pages, (2) count the number of
       pages in the payroll register, and (3) multiply the number of employees per page by
       the number of pages, or count (using a computer audit routine) the number of
       employees on the payroll data file for the period.

    b. Compare the payroll information obtained in step 5.a. and the calculated headcount
       from step 5.b. to the information shown on each respective Semiannual Headcount
       Report.

    c. Report any differences (i.e., gross rather than net) greater than 2 percent between the
       headcount reporting on each respective agency Semiannual Headcount Report and
       payroll information from step 5.a. and the calculated headcount from step 5.b. Obtain
       a management official name, telephone number, an email address, and an explanation
       for the differences.

    Results

    Similar to prior years, our estimated headcounts for military deposits and salary offsets
    often differed by more than 2 percent from those reported on the Supplemental
    Semiannual Headcount Report (OPM 1523). This year NFC established project 524267
    to research and make the required programming modifications, and indicated these
    changes should eliminate these differences in the future.

    Also, similar to last year we identified some differences greater than 2 percent of the
    reported count for payers of full premiums for health benefits, and for those with no
    deductions for, but enrolled in various life insurance and/or retirement plans for various
    reasons. For example, NFC tended to slightly overstate some reported counts for these
    by using a sorting method that occasionally caused the number of summarized records to
    exceed the number of employees who have more than one type of payment. This year,
    NFC indicated project 524267 includes a sorting modification it intends to implement in
    PP 9, 2014, that will reduce this tendency. However, NFC also clarified this future
    sorting modification is limited to records with the same department code.

                                                                 REPORT 11401-0006-11        11
Exhibit A: Procedures Performed and Results
                                                                              Exhibit A – Page 9 of 15

        In addition, sometimes a correct total headcount was misallocated resulting in opposing
        misstatements of related subtotals. For example, similar to last year several individuals
        required to pay full FEHB premiums after they had been on a military furlough for more
        than 365 days were included in the subtotal NFC reported for those paying “regular”
        premiums instead of the reported subtotal of “payers of full premiums.” Since this
        misallocation slightly overstated some “regular” subtotals and slightly understated some
        “full premium” subtotals (the latter by over 2 percent), NFC indicated they “will contact
        OPM for a ruling . . . [and] if system changes are warranted, . . . establish a project to
        implement those changes.”

        We again noted other misallocations between related subtotals that caused very small
        misstatements of those with, and those without deductions for optional life insurance, the
        latter by more than 2 percent in some cases. These misallocations were caused by NFC
        using the existence/absence of a deduction for basic FEGLI instead of the
        existence/absence of a deduction for the FEGLI option. This year NFC indicated project
        524267 also includes modifying the program logic to base future subtotals of enrollment
        in FEGLI options A, B, and C “on whether the applicable optional deduction itself was
        made. These programming changes will be implemented in PP 9, 2014.”

        Additionally, in regard to those “enrolled with no deductions made for retirement,” NFC
        included significantly more “unpaid employee” records than those included in other
        counts. NFC indicated additional extensive research will be required to address this
        inconsistency and stated it will work with OIG to get the details necessary to perform the
        research and will establish a project if further programming changes are identified.

        The magnitude of any overstatement in retirement headcounts caused by this
        inconsistency will be reduced by another project 524267 modification that NFC
        developed in response to a prior year finding regarding those who recently separated.
        This modification will allow NFC to exclude those whose separations were recorded in,
        but effective before the current pay period (although this will not apply to separations
        recorded after, but effective before the current PP).

     6. Calculate employer and employee contributions for retirement, health benefits, and life
        insurance as follows:

        a. Calculate retirement withholdings and contributions for the three PPs selected in step
           1.a. as follows:

              i.   Multiply the CSRS and FERS payroll base by the withholding and employer
                   contribution rates required by law.




12     REPORT 11401-0006-11
Exhibit A: Procedures Performed and Results
                                                                                   Exhibit A – Page 10 of 15

              ii.   Compare the calculated totals from step 6.a.i. to the related amounts shown on
                    the RITS submissions. Report any differences (i.e., gross rather than net)
                    between the calculated amounts and the amounts reported on the RITS
                    submissions that are greater than 5 percent of the amounts on the RITS
                    submission, and obtain management’s explanation for the differences.

        Results

        There were no differences greater than 5 percent, except in some cases, our calculation of
        military deposit dollar subtotal differed by more than 5 percent from the corresponding
        CSRS and FERS subtotal reported on the SF-2812. Similar to previous years,
        OCFO/NFC personnel stated that misallocations continue to occur rarely with manually
        processed payments. However, these errors are identified and corrected in the subsequent
        PP. Additionally, NFC stated that the number of Federal Erroneous Retirement Coverage
        Corrections Act3 cases (the number of which have increased significantly), as well as
        adjustments made using the NFC Special Payment Processing System may lead to some
        of the differences identified.

        b. Calculate employee withholdings and employer contributions for health benefits for
           the three PPs selected in step 1.a., as follows:

               i.   Multiply the number of employees enrolled in each health benefits plan and
                    plan option by the employee withholdings and employer contributions for the
                    plan and option.

              ii.   Sum the totals in step 6.b.i. and compare the results with the health benefit
                    withholding and contribution amounts shown on the RITS submissions.
                    Report any differences (i.e., gross rather than net) between the calculated
                    amounts and the amounts reported on the RITS submissions that are greater
                    than 5 percent of the amounts on the RITS submission, and obtain
                    management’s explanation for the differences.

        Results

        There were no differences greater than 5 percent.

        c. Calculate the basic life insurance employee withholdings and employer contributions
           for the three PPs selected in step 1.a., as follows:



3
 The Federal Erroneous Retirement Coverage Corrections Act, Public Law 106-265, was enacted
September 19, 2000.

                                                                          REPORT 11401-0006-11          13
Exhibit A: Procedures Performed and Results
                                                                          Exhibit A – Page 11 of 15

           i.   Obtain a payroll system query from agency payroll provider personnel to
                obtain the total number of employees with Basic Life Insurance coverage and
                the aggregate annual basic pay for all employees with Basic Life Insurance.

          ii.   For employee withholdings: add the product of 2,500 times the number of
                employees with Basic Life Insurance coverage from step 6.c.i. above to the
                aggregate annual basic pay for all employees with Basic Life Insurance from
                step 6.c.i above to calculate the estimated total Basic Life Insurance coverage.
                Divide this calculated total by 1,000 and multiply it by the withholding rate
                required by law. The Life Insurance withholding rates are in the FEGLI
                Program Booklet on OPM’s website.

         iii.   Compare the results in step 6.c.ii. to the withholdings for Basic Life Insurance
                coverage reported on the RITS submission. Report any difference (i.e., gross
                rather than net) between the estimate and the amount of the withholdings
                reported on the RITS submission greater than 5 percent of the amounts on the
                RITS submission, and obtain management’s explanation for the difference.

     Results

     There were no differences greater than 5 percent.

         iv.    For agency contributions: divide the results of step 6.c.ii. by two – this
                approximates agency contribution, which are one-half of employee
                withholdings. Compare this result to the amount reported on the RITS
                submission. Report any differences (i.e., gross rather than net) between the
                estimated amount and the actual amount reported on the RITS submission that
                are greater than 5 percent of the amounts on the RITS submission, and obtain
                management’s explanation for the differences.

     Results

     There were no differences greater than 5 percent.

     d. Calculate the Option A, Option B, and Option C Life Insurance coverage
        withholdings for the three PPs selected by using the detail payroll reports used to
        reconcile the RITS reports in Step 1. In addition to the information used for step 1,
        the reports should include the employee’s date of birth, annual rate of basic pay, and
        number of multiples selected for Option B and C. Note: while similar to step 2.j., the
        calculation at this step is for the entire amount reported on the RITS submissions for
        the three PPs selected, as opposed to the sample of 25 employees in step 2.j.



14   REPORT 11401-0006-11
Exhibit A: Procedures Performed and Results
                                                                           Exhibit A – Page 12 of 15

            i.   Multiply the number of employees in each age group by the appropriate rate
                 for Option A in accordance with the rates for age groups provided in the
                 FEGLI Program Booklet.

           ii.   Compare the result in step 6.d.i. to the amounts for Option A reported on the
                 RITS submissions. Report any differences (i.e., gross rather than net) greater
                 than 2 percent of the amounts on the RITS submission, and obtain
                 management’s explanation for the differences.

     Results

     There were no differences greater than 2 percent.

          iii.   Segregate the reports for Option B and Option C insurance into the age groups
                 shown in the FEGLI Program Booklet. For Option B, round the employee’s
                 annual rate of basic pay up to the next 1,000, then divide it by 1,000, and then
                 multiply this amount by the rate for the age group by then multiplying this by
                 the number of multiples:

                 (Annual rate of basic pay (rounded up)/1,000*rate*multiples).

                 For Option C, multiply the rate for the age group by the number of multiples
                 chosen for each employee.

          iv.    Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
                 respectively, reported on the RITS submissions. Report any differences (i.e.
                 gross rather than net) greater than 2 percent of the amounts on the RITS
                 submission for Option B or Option C, and obtain management’s explanation
                 for the differences.

     Results

     There were no differences greater than 2 percent.

  7. Compare the list of field offices/duty stations to the list of local Combined Federal
     Campaign (CFC) campaigns obtained from OPM’s Office of CFC Operations (OCFCO).
     Determine in which campaign each field office/duty station is located. (Note: it is
     possible for a field office/duty station to be in a location with no local CFC campaign.)




                                                                 REPORT 11401-0006-11           15
Exhibit A: Procedures Performed and Results
                                                                            Exhibit A – Page 13 of 15

        Report as a finding the following: all instances in which a Federal agency has a CFC
        deduction for an employee whose official duty station is in an area with no local CFC
        campaign. A chart listing the Federal agency, the duty station code and the campaign
        receiving the funds should be included. Obtain management’s explanation for the
        differences and a corrective action plan.

        Results

        We analyzed the records of 83,123 employees with CFC deductions reported by
        OCFO/NFC for PP 3, 2013. Of these 83,123 employees, 80,613 had the same duty
        station code in PP 17, 2012 and PP 26, 2012, which roughly coincide, respectively with
        the beginning and end of the 2012 CFC solicitation period. Of these 80,613, we
        identified 44 employees (or .05 percent) at duty stations with no corresponding CFC. See
        exhibit B for a chart listing the Federal agency, the duty station code and the campaign
        receiving the funds as well as OCFO/NFC management’s response.

     8. Compare a list of accounting codes to the identified campaigns for each field office/duty
        station.

        a. Determine the accounting code for each field office/duty station.

        b. Determine if the name of the campaign, Principal Combined Fund Organization
           (PCFO), address of the PCFO in the agency payroll provider’s system agree with the
           information for that field office/duty station on the list of local CFC campaigns
           obtained from OPM’s OCFCO.

        Report as a finding the following: all instances in which the name of the campaign,
        PCFO, or address of the PCFO on the list of accounting codes from the Federal Payroll
        Office does not agree to the information on the list of all local CFC campaigns obtained
        from OPM’s OCFCO. A chart detailing the differences should be included. Obtain
        management’s explanation for the differences and a corrective action plan.

        Results

        We identified differences when we compared the name of the CFC campaign, PCFO, or
        address of the PCFO on the list of CFC areas from the OCFO/NFC system to the list of
        local CFC areas provided by OPM. See exhibit C for a chart detailing the differences and
        OCFO/NFC management’s response.




16      REPORT 11401-0006-11
Exhibit A: Procedures Performed and Results
                                                                          Exhibit A – Page 14 of 15

  9. Sort the report of all employees with CFC deductions by official duty station.

     a. Compare the official duty stations to the campaigns identified for those locations.

     b. Compare the accounting codes for each employee with CFC deductions to the
        accounting code identified for that employee’s official duty station. Determine if this
        agrees with the accounting code identified for that field/duty station.

     Report as a finding the following: all instances in which the accounting code for an
     employee with CFC deductions does not agree with the accounting code for that
     employee’s official duty station. A chart listing the Federal agency, the duty station
     code, the campaign used and the correct campaign should be included. Obtain
     management’s explanation for the differences and corrective action plan.

     Results

     Of the 83,123 employees with CFC deductions reported by OCFO/NFC for PP 3, 2013,
     80,613 had the same duty station code in PP 17, 2012 and PP 26, the PPs that roughly
     coincide respectively with the beginning and end of the fall 2012 CFC solicitation period.
     We determined that the OCFO/NFC code was not consistent with the OPM CFC code by
     duty station for 1,969 of the 80,613 employees with the same duty station in PP 17, 2012
     and PP 26, 2012. See exhibit D for a chart detailing the differences and OCFO/NFC
     management’s response.

  10. From the list of accounting codes that do not agree with the field office/duty station,
      select a judgmental sample of two pledges per federal agency and request the hard copy
      pledge form the agency.

               ·   Determine if the pledge form used was for the correct campaign based on the
                   official duty station.

     Report as a finding the following: all instances in which the incorrect pledge form was
     used by the employee. A chart listing the Federal agency, the correct campaign and the
     campaign used should be included.




                                                                 REPORT 11401-0006-11         17
Exhibit A: Procedures Performed and Results
                                                                                         Exhibit A – Page 15 of 15

        Results

        We requested 17 CFC pledge forms4 from 9 agencies. Agencies were unable to provide
        two of the requested pledge forms – one for the Agency for International Development,
        and the other for the Department of Commerce. Of the 15 pledge forms received, 11
        were for the incorrect CFC campaign. See exhibit E for a chart listing the Federal
        agency, the correct campaign and the campaign used.




4
 Agency for International Development only had one CFC code that did not agree with field office duty stations; all
other departments tested had at least two.

18      REPORT 11401-0006-11
Exhibit B: Combined Federal Campaign (CFC) Deductions for
Employees With No Local CFC Campaign
                                                                         Exhibit B – Page 1 of 2



                     CFC Per the National            Number of
  Duty Station                                                               Department
                     Finance Center (NFC)            Exceptions

   081500073                  0141                        1                Agriculture
   130270059                  0211                        5                Agriculture
   130270059                  0211                        1              Homeland Security
   130490013                  0211                        1                Agriculture
   212640195                  0405                        1                   Labor
   401510009                  0712                        1                  Justice
   420840083                  0684                        3                Agriculture
   421710105                  0990                        1                 Commerce
   480820271                  0840                        1              Homeland Security
   483570255                  0852                        9              Homeland Security
   485260163                  0852                        9              Homeland Security
   485280389                  0840                       11              Homeland Security
     Totals                                              44

This chart lists instances in which a federal agency has a CFC deduction for an employee whose
official duty station is in an area with no CFC campaign. The Office of Personnel Management
data shows CFC code of “N/A” for each of the duty stations listed above. This chart has separate
columns for duty station code, the CFC code for the campaign receiving the funds, number of
exceptions, and the federal agency.




                                                                  REPORT 11401-0006-11        19
Exhibit B: CFC deductions for employees with no local CFC
campaign
                                                                          Exhibit B – Page 2 of 2

NFC Response

OIG identified 44 employees who were in duty stations that had no corresponding CFCs and thus
cannot participate in the CFC; however, per NFC’s database records, the employees had CFC
deductions that were being sent to CFCs which do not cover those duty stations. For the 2012
CFC, NFC’s human resources management personnel processed CFC allotments, upon request,
for the following agencies’ employees only, based on NFC’s service level agreements with these
agencies: USDA Office of the Chief Financial Officer (agency code 90), USDA National
Appeals Division (agency code NA), DHS Coast Guard (agency code CG), and DHS Office of
the Inspector General (agency code OG). We reviewed the records provided by OIG for the 44
employees and noted that there were no agency 90, NA, CG, and OG employees on the list. The
CFC personnel for the individual campaigns areas are responsible for the solicitation,
distribution, and the collection of the CFC pledge forms for their campaign areas, and the
agencies’ human resources management personnel are responsible for processing the CFC
allotments for their own employees. Since this is a once a year activity that may include
employees both new and unfamiliar to the process, the errors were most likely caused by
inexperienced personnel accepting pledge forms from employees in duty stations with no
corresponding CFCs. Of the 44 employees identified by OIG as assigned to duty stations that
had no corresponding CFCs, 26 of those employees work for DHS Immigrations and Customs
Enforcement (agency code BB).

From the universe of Chief Financial Officer Act entities serviced by NFC, there were 83,123
employees who had CFC deductions during pay period 3, 2013. The 44 errors represented only
0.05 percent (or 5 hundredths of 1 percent) of employees with CFC deductions. As such, we feel
the root cause is human input/process errors, and the findings should be subjected to acceptable
normal input error rates.




20    REPORT 11401-0006-11
Exhibit C: Name, Principal Combined Fund Organization (PCFO)
and Address Differences
                                                                           Exhibit C – Page 1 of 2

A. CFC not on OPM’s list due to merger

In pay period 3, 2013, the National Finance Center (NFC) attributed CFC withholdings (of
$15.60) of one employee of the Department of Housing and Urban Development (HUD) to the
Inland Empire CFC, and attributed withholdings (of $28) of two Internal Revenue Service
employees to the Greater Utica Herkimer City CFC. However, neither CFC were included in
OPM’s 2012 CFC PCFO Finance Contacts because of mergers before the 2012 solicitation
period. Instead, these withholdings should have been transferred to the PCFO of Intermountain
CFC,and the PCFO of Greater Rome Area CFC, respectively.

NFC Response

a. The instance in which an employee’s CFC deductions were attributed to the Inland Empire
CFC involved a Housing and Urban Development employee (HUD, agency code 83), and the
charitable contribution allotment record was entered by the employee’s personnel office. NFC
personnel do not enter charitable contribution allotment records for HUD employees. NFC
personnel contacted the PCFO for the Intermountain CFC and obtained the CFC pledge form for
the employee, verified the personnel transaction history records in the payroll/personnel system,
and confirmed that while the employee used the correct CFC pledge form (Intermountain CFC),
the employee’s personnel office selected the incorrect CFC code when entering the employee’s
charitable contribution allotment record.

To rectify the problem, NFC has notified the employee’s personnel office to correct the
employee’s charitable contribution allotment record. Once the charitable contribution allotment
record has been corrected, NFC will then notify OPM’s Office of CFC Operations to have the
CFC funds for the affected pay periods transferred to the Intermountain CFC.

NFC has established a tickler to inactivate the Inland Empire CFC record (16 0960) in Table
Management (TMGT) when changes are made in January 2014 for the 2013 CFC campaign so
that this code could no longer be used.

b. The Greater Utica Herkimer County CFC (36 6220 per NFC) merged into the Greater Rome
Area CFC (36 5260 per NFC, 0361 per OPM), effective as of the 2011 campaign. However,
NFC personnel was not informed of the merger until January 30, 2013, after NFC personnel
notified OPM’s Office of CFC Operations that the Greater Utica Herkimer County CFC was still
listed as an active CFC on OPM’s CFC website. Since NFC was not timely notified of the
merger, TMGT did not timely reflect the correct information for the merger.

Because two Internal Revenue Service (agency code 93) employees’ CFC deductions are
currently associated with the Greater Utica Herkimer County CFC, NFC personnel cannot delete
this record from TGMT.

                                                                   REPORT 11401-0006-11          21
Exhibit C: Name, Principal Combined Fund Organization (PCFO)
and Address Differences
                                                                        Exhibit C – Page 2 of 2

However, to ensure that the funds are sent to the correct CFC organization, on March 7, 2013,
NFC personnel modified the routing and bank account number for the Greater Utica Herkimer
County CFC’s PCFO in TMGT to reflect the routing and bank account number of the Greater
Rome Area CFC’s PCFO. Therefore, CFC disbursements beginning in pay period 4, 2013 will
be sent to the correct PCFO. In addition, NFC has notified OPM’s Office of CFC Operations to
request the PCFO for the Greater Utica Herkimer County CFC to transfer the funds for pay
periods 1, 2, and 3 of 2013 (totaling $84) to the PCFO for the Greater Rome Area CFC.

NFC personnel has established a tickler to inactivate the Greater Utica Herkimer County CFC
record (36 6220 per NFC) in TMGT when changes are made in January 2014 for the 2013 CFC
campaign so that this code could no longer be used.

B. Incorrect PCFO names:

The table below shows four differences in PCFO names. The differences occurred because the
NFC TMGT 006 reported no PCFO name, the name of the CFC instead of the PCFO, or the
name of the PCFO’s bank instead of the PCFO. For these four, this is the only difference
between OPM and NFC name and address information.


 CFC
  per             PCFO per OPM                       PCFO per NFC
 OPM
0006      United Way of SW Alabama, Inc.
0842      Greater Fort Hood United Way       FORT HOOD NATL BANK
0921      United Way of Kitsap County        KITSAP BANK
0943      United Way of Eastern Panhandle    EASTERN PANHANDLE CFC

NFC Response:

While PCFO name differences may exist between NFC’s TMGT table 006 and OPM’s CFC
PCFO Finance Contacts file, the CFC funds were disbursed to the correct PCFO bank accounts.
On April 12, 2013, NFC personnel made corrections to TMGT for the PCFO name differences
the Office of Inspector General identified above.




22      REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                            Exhibit D – Page 1 of 24

                          CFC Codes attributed             Department Code
  OPM’s   Duty Station    by NFC differing from             and frequencies
   CFC
                          OPM’s & frequencies                (if not 1 or all)
   0002    010350117        0990                1               CM
           011710073        0811                1                TR
   0004    011730089        0990                3                DJ
                            0002                1                HS
   0005    010200081        0373                9                AG
           013050125        0002                1                DJ
   0006    012100097        0500                1                HS
   0051    040070021        0052                1                AG
           040130003        0840                1                HS
           040160021        0052                2                HS
           040170005        0052                2                DJ
           040180021        0052                1                HS
           040297021        0052               15                AG
           040330023        0840                1                HS
           040429017        0052                1                SB
           040431003        0990                2             DJ & HS
           040530019        0407                2               CM
                            0839                1                DJ
                            0990                1                HS
           040590005        0606                1                AG
   0052    040370013        0560                2            HS & Other
                            0990                2             AG & DJ
                            0141                1                HS
           040490013        0990                1               CM
   0072    052320119        0839                6            FD(5) & AG
                            0990                1                AG
   0095    060240029        0116                1                AG
           060461051        0560                2                AG
           062130019        0106                1                DJ




                                                    REPORT 11401-0006-11         23
Exhibit D: Accounting Code Differences
                                                         Exhibit D – Page 2 of 24

                              CFC Codes attributed     Department Code
     OPM’s
               Duty Station   by NFC differing from     and frequencies
      CFC
                              OPM’s & frequencies        (if not 1 or all)
     0096       060030037        0990              1         CM
                060720037        0990              1         CM
                061110037        0589              1         TR
                061430037        0990              1         DJ
                061782059        0990              1         CM
                061786059        0839              1         HS
                061970037        0923              1         DL
                061980037        0990              4   DJ, HS & TR(2)
                                 0106              3   DJ, FD, & Other
                062327065        0105              6         HS
                063070065        0100              3         HS
                                 0990              2      CM & DJ
                063250059        0105             29         HS
                063420059        0106              2    HU & Other
                063851065        0105             11         HS
                064025037        0990              1         CM
                069990037        0990              1         CM
     0100       060410065        0051             75         HS
                061690065        0105              1         HS
                062650065        0096              1         HS
     0105       061090025        0100              1         HS
                061200073        0990              1         CM
                063260073        0096              2         HS
                                 0106              1         TR
                                 0117              1         CM
                                 0923              1         CM
                                 0990              1         DJ
                063418073        0096              1         HS
                                 0772              1         HS




24     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                           Exhibit D – Page 3 of 24

                          CFC Codes attributed           Department Code
  OPM’s
           Duty Station   by NFC differing from           and frequencies
   CFC
                          OPM’s & frequencies               (if not 1 or all)
   0106     060330095        0990              1               DL
            060340001        0751              1               AG
                             0990              1              Other
            060980113        0990              1               AG
            061300067        0990              1               CM
            062182085        0990              1               CM
            062480001        0990              5               HS
                             0105              2              Other
            062980081        0990              1               CM
            063150067        0728              1               AG
                             0990              1               AG
            063290075        0990              3          CM, DL & TR
                             0096              1               CM
   0115     061280111        0095              4               AG
            062890111        0096              1               HS
            063460083        0096              1               DJ
            064027111        0096              3               DJ
   0116     064050107        0095              1               AG
   0117     063180053        0106              1               TR
            064100087        0106              1               DJ
   0140     080430041        0141              1               DL
                             0990              1               HS
            081680105        0870              1               AG
            081956041        0990              1               HS
            082050101        0990              2           HS & Other
            082350009        0870              1               AG
   0141     080354005        0990              1               HS
            080600031        0990             10        CM, HS(7), & HU(2)
            081435059        0791              1               AG




                                                   REPORT 11401-0006-11         25
Exhibit D: Accounting Code Differences
                                                         Exhibit D – Page 4 of 24

                              CFC Codes attributed     Department Code
     OPM’s
               Duty Station   by NFC differing from     and frequencies
      CFC
                              OPM’s & frequencies         (if not 1 or all)
     0142       080860069        0990              5           AG
                                 0870              2           AG
                                 0141              1           AG
                081550069        0141              1           HS
                                 0870              1           DJ
     0162       090280003        0427              3      DJ & HS(2)
                                 0990              1           DJ
     0164       090080001        0770              3           DL
                090110009        0990              1          CM
                090385009        0589              3          CM
                090510001        0162              4           TR
                090520011        0162              2      AG & Other
                090655001        0990              1          CM
                090700001        0990              1          CM
                090760005        0162              1           AG
     0175       100130001        0751              1           HS
                100360003        0405              1           TR
                100490003        0751              5   HS(2), HU(2) & TR
                                 0990              1          CM
     0181       120620009        0189              1           AG
                121483009        0990              1          CM
                123000009        0192              1           DJ
     0185       121130001        0990              3    DJ, HS, & Other
                121510031        0192              1           AG
                                 0211              1           DL
                                 0355              1           HU
                                 0990              1           FD
                122350019        0990              1          CM
                122940073        0211              1           HS
                                 0838              1          CM
                                 0990              1           DJ
                130760127        0990              1           HS
                132394127        0560              1           HS
                                 0605              1           HS
                                 0990              1           HS

26     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                           Exhibit D – Page 5 of 24


  OPM’s                  CFC Codes attributed           Department Code
          Duty Station   by NFC differing from           and frequencies
   CFC
                         OPM’s & frequencies               (if not 1 or all)
   0189    120290099        0990               1              CM
           121050011        0990               1              HS
           121280011        0990               1              CM
           122010086        0990               4         AG, CM & HS(2)
                            0185               2            HS & HU
                            0192               1              HS
                            0897               1               DJ
                            0975               1               DJ
           122083011        0990               8              HS
           122260011        0990               1              CM
           122300093        0990               1              CM
           122900085        0975               1              HS
   0192    120810127        0185               1              AG
           121840117        0990               1              CM
           121895095        0197               3               DJ
           122190127        0189               1              CM
           122360095        0990               2           CM & HS
                            0197               1              HS
                            0211               1              DL
                            0943               1              AG
           122420107        0185               1              AG
           122700097        0990               1              CM
           123270095        0990               1              CM
   0193    120457071        0990               1              CM
           121070071        0197               2            DJ & HS
                            0990               1              HS
   0194    122490033        0197               1               DJ
   0197    122730103        0990               1              CM
           122806103        0192               1               DJ
           122950057        0192               9              HS
                            0990               3          AM, DJ & CM
                            0189               1              SB
           123173101        0990               1              CM
   0210    135460275        0211               1              HS



                                                   REPORT 11401-0006-11        27
Exhibit D: Accounting Code Differences
                                                              Exhibit D – Page 6 of 24

                               CFC Codes attributed by     Department Code
  OPM’s
               Duty Station   NFC differing from OPM’s      and frequencies
   CFC
                                    & frequencies            (if not 1 or all)
     0211       130280089          0257            1              TR
                                   0809            1              TR
                                   0990            1              HS
                130280121          0990            6     DJ, TR, DL(2) & HU(2)
                                   0189            1              DL
                                   0197            1              HU
                                   0218            1               DJ
                131250121          0990            1              CM
                133230297          0990            1              CM
                134020089          0990            1              CM
     0212       130310245          0218            2               DJ
                                   0211            1               DJ
                                   0990            1              CM
                450020003          0990            1             Other
     0214       131280215          0211            3          DJ(2) & HS
                133310259          0211            8              HS
     0217       131775021          0211            1              AG
     0218       134910051          0211            2            DJ & DL
     0225       152400003          0990            3          HU & HS(2)
                                   0096            1              HS
                153002001          0990            1              CM
                156200007          0990            1              HS
     0249       171670031          0990           38     CT(28), DJ(2) & HS(8)
                                   0964            2           HU & TR
                                   0427            1              DL
                171670043          0990            3          CM & HS(2)
                172440043          0211            1              TR
                                   0964            1              TR
                                   0990            1              TR
                174958097          0990            1              CM
                177000197          0990            1              CM
                178770019          0257            2            DJ & HS
                182972089          0457            1              TR
                184960127          0283            1             Other
     0257       178220167          0524            1              AG

28     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                           Exhibit D – Page 7 of 24

                          CFC Codes attributed         Department Code
  OPM’s
           Duty Station   by NFC differing from         and frequencies
   CFC
                          OPM’s & frequencies             (if not 1 or all)
   0259     177460201        0249             2               DJ
                             0990             1              CM
            177470161        0249             2              HS
            191340113        0481             1              DL
            198670011        0507             1             Other
   0283     180380105        0990             1              CM
            181950081        0095             1              TR
            182210097        0095             1              TR
            182570091        0249             1              AG
   0339     204000079        0524             2              AG
   0355     181480163        0283             2            DJ & HS
                             0528             2              TR
            212980211        0682             1              AG
   0371     220040079        0372             1              DL
            221230055        0372             1              DL
                             0990             1              CM
            221250019        0372             2              HS
            221560073        0372             1              DL
                             0809             1              AG
   0372     221070109        0374            15              AG
            221690071        0374             2            HS & TR
                             0845             1              HS
                             0990             1               DJ
   0373     222130017        0372             1               DJ
                             0839             1              FD
   0374     220150033        0372             5              HS
                             0506             1              AG
   0391     230160011        0990             1              HS
            230250019        0990             1              AG
            232500009        0427             1              CM
            234150031        0845             1              HS
            236400005        0427             2            CM & HS




                                                  REPORT 11401-0006-11        29
Exhibit D: Accounting Code Differences
                                                             Exhibit D – Page 8 of 24


  OPM’s                       CFC Codes attributed       Department Code
               Duty Station   by NFC differing from       and frequencies
   CFC
                              OPM’s & frequencies           (if not 1 or all)
     0405       240030003        0990             5             CM
                                 0944             2             AG
                                 0409             1             AG
                240050510        0990             2          CM & DJ
                                 0751             1             CM
                240255005        0990             1             CM
                240358027        0990             1             CM
                240381027        0990             2          CM & DJ
                240401003        0990             1             CM
                240403003        0990             1             CM
                240419003        0990             1             CM
                240496003        0990             7             SM
                240530027        0990             3             CM
                240543005        0990             1             CM
                240673003        0897             1             HS
                240765003        0990             1             CM
                241189005        0990             1             CM
                241296005        0990             1             CM
                241380045        0990             1             CM
                241662027        0990             1             CM
                510490001        0897             1             HS
     0407       240540021        0405             1             HS
                                 0990             1             HS
                240580021        0990             4        AG & CM(3)
                                 0405             2         DJ & Other
                240730043        0990             1             CM
                241090021        0990             1             CM
     0409       240930037        0405             2            Other
     0427       250120025        0432            10             DJ
                                 0770             3         HU & DJ(2)
                                 0990             2          HS & SM
                                  A*              6   HU, DJ, TR, DL(2), & AG
                250370021        0571             1             FD
                250850005        0770             2             HS
                251280005        0770             8             CM

30     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                            Exhibit D – Page 9 of 24

                          CFC Codes attributed       Department Code
  OPM’s    Duty Station   by NFC differing from       and frequencies
   CFC
                          OPM’s & frequencies           (if not 1 or all)
            251465021        0990             1              CM
   0432     251270013        0162             1              FD
   0452     260940125        0990             1              CM
            261260163        0249             1              AG
                             0773             1              TR
                             0990             1              HS
            262090163        0990             1              CM
            262104163        0990             1              TR
            264430161        0990             1              CM
   0453     261730049        0452             3              DJ
   0454     262010081        0839             1              DJ
   0458     260320017        0452             1              DJ
            264350145        0452             1              DJ
   0466     262160047        0990             1              CM
            262450043        0964             1              TR
            262470053        0964             1              AG
            263050103        0454             3              DJ
            263700131        0964             1              AG
   0481     192260153        0249             1              DL
            198980153        0259             1              TR
            271900137        0672             3              HS
                             0964             1              AG
            273480071        0672             1              HS
            274760053        0990             1              TR
            274810053        0990             1              CM
            275335069        0672             2              HS
            276330123        0957             1              TR
                             0990             1              CM
            277360135        0672             1              HS
            380380009        0672             1              HS
   0500     280130045        0990             1              HS
            280230047        0189             1              DL
                             0503             1              DL
   0503     281220049        0189             1              DL
                             0839             1              FD

                                                  REPORT 11401-0006-11         31
Exhibit D: Accounting Code Differences
                                                             Exhibit D – Page 10 of 24


     OPM’s                      CFC Codes attributed      Department Code
                 Duty Station   by NFC differing from      and frequencies
      CFC
                                OPM’s & frequencies          (if not 1 or all)
                                   0990             1             HU
     0520         291800019        0283             1             AG
                                   0528             1             SB
                                   0990             1             FD
     0521         296910161        0528             2             DJ
     0524         203080091        0990             1             TR
                  205400177        0990             1             AG
                  294120095        0990            21   CT(14), FD(5), TR & SB
                                   0528             2          AG &TR
                  294120165        0552             1             HS
                  294490095        0990             1             AG
     0527         297070021        0520             1             AG
     0528         293980031        0524             1             CM
                  294380197        0520             1             AG
                  297080510        0524             5    DJ(2), AG, DL & FD
                                   0990             2             CM
                                   0520             1             AG
     0540         300100111        0030             2             AG
     0542         300530013        0540             1             HS
                  301125101        0540             1             HS
     0543         300340001        0540             1             AG
                  301290069        0540             1             AG
     0545         300830063        0543             1             AG
     0551         312830109        0552             1             HS
     0552         197960059        0481             1             AG
                  310580177        0551             1             AG
                  311890061        0551             1            Other
                  311900053        0551             1            Other
                  313240099        0524             1             AG
                  315050155        0551             1             AG
                  315360185        0551             1            Other
     0560         320120003        0096            11             HS
                                   0606             1             AG
                  320170031        0106             1             TR



32     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                          Exhibit D – Page 11 of 24

                           CFC Codes attributed          Department Code
  OPM’s     Duty Station   by NFC differing from          and frequencies
   CFC
                           OPM’s & frequencies              (if not 1 or all)
   0571      330070013        0990              2            HS & TR
                              0427              1               AG
             330098013        0990              1               AG
             330100017        0990              1               CM
             330310011        0427              1               HS
                              0626              1               HU
             330385003        0990              1               CM
             330430015        0990              1               TR
             500100025        0432              1               TR
                              0626              1              Other
             500200007        0990              1               CM
   0580      340090001        0990              4               HS
             340520007        0589              1               HS
             340598007        0589             10          HS(5) & TR(5)
                              0751              3               DJ
             340696005        0589              2               AG
             341230007        0990              1               CM
             341270001        0589              1               AG
             341290005        0589              1               AG
             341778005        0751              1               HS
             341833005        0990              3               HS
             341850001        0990              1               CM
             342081005        0589              5               HS
                              0751              1               TR
             343380021        0589              1               TR
                              0990              1               DJ
             343460011        0589              2               AG
             343760033        0589              1               AG
   0589      340640003        0990              1               CM
             340779023        0751              1               TR
             340938013        0839              1               DJ
             341430017        0990              1               CM
             341985037        0990              1               CM
             342130013        0626              2           HS & Other
             342420003        0990              1               CM
             343096035        0580              3               DJ
                                                    REPORT 11401-0006-11        33
Exhibit D: Accounting Code Differences
                                                            Exhibit D – Page 12 of 24

                                CFC Codes attributed       Department Code
     OPM’s
                 Duty Station   by NFC differing from       and frequencies
      CFC
                                OPM’s & frequencies           (if not 1 or all)
     0605         350020035        0840            89             HS
                                   0606             4             AG
                  350154035        0840             1             HS
     0606         350030001        0840             1             HS
                                   0990             1             AG
                  350510028        0990             1            Other
                  350710049        0990             1             HS
                  350810051        0840            10             HS
     0615         350310045        0606             2              DJ
     0620         360050001        0634             1              DJ
                  366110083        0751             1             AG
     0621         360750029        0626             1            Other
                                   0627             1             TR
                                   0772             1             HS
                  361117029        0642             1             TR
                  362260069        0634             6             AG
                  362899013        0990             1             CM
                  365230055        0990             1             CM
                  366622055        0990             1             CM
     0626         364170005        0427             1             HS
                                   0644             1              DJ
                                   0990             1              DJ
                  364170047        0990             2             TR
                                                        DJ, HS, TR, Other, CM(2)
                  364170061        0990           27
                                                                & CT(21)
                                   0642           3               HS
                                   0211           1               DL
                                   0580           1               TR
                                   0589           1                DJ
                                   0620           1               CM
                                   0751           1                DJ
                  364170081        0642           3               HS
                                   0990           2            HS & CM
     0631         366220065        0634           1               DL



34     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                         Exhibit D – Page 13 of 24

                           CFC Codes attributed       Department Code and
  OPM’s
            Duty Station   by NFC differing from          frequencies
   CFC
                           OPM’s & frequencies             (if not 1 or all)
   0634      364540075        0621             7               HS
                              0682             1               HS
   0638      366450045        0621            22               HS
   0639      362320071        0990             1                DJ
             364560071        0760             1                DJ
   0642      360500103        0427             1               CM
             362758103        0626             1               TR
                              0990             1               TR
             363933103        0990             1               CM
             364505103        0626             1               HS
                              0990             1               HS
   0644      362680111        0642             1               AG
             365030027        0990             1               CM
   0650      370170021        0655             4          DJ(2) & HS(2)
                              0990             1               CM
   0654      370350031        0189             1               CM
             373250049        0990             1                DJ
   0655      370860135        0990             1               CM
             370870119        0211             2                DJ
                              0990             2            CM & FD
             371040025        0990             1               CM
             371940081        0990             1                DJ
             372730069        0990             1               CM
             373750183        0990             2            HS & TR
                              0225             1               CM
             374790183        0990             1               CM
             451110057        0990             1               CM




                                                   REPORT 11401-0006-11        35
Exhibit D: Accounting Code Differences
                                                          Exhibit D – Page 14 of 24

                               CFC Codes attributed    Department Code and
     OPM’s
                Duty Station   by NFC differing from       frequencies
      CFC
                               OPM’s & frequencies         (if not 1 or all)
     0656        371670051        0655             3            DJ
                 373600125        0990             1            CM
                 374090105        0990             1            CM
                 375060129        0990             2            CM
                                  0452             1            TR
                                  0655             1            SB
     0660        374070159        0655             1            AG
     0670        380370015        0481             1            DJ
                 381600093        0672             1            AG
     0672        381020017        0481             1            AG
     0682        182020077        0524             1            AG
                 211980067        0355             2            DJ
                 391610061        0355             1            TR
                                  0684             1            TR
                                  0975             1            DJ
                                  0990             1            CM
     0684        391320151        0990             1            DJ
                 391680035        0990             1            DL
                 396320085        0990             1            CM
                 397880035        0990             1            CM
                 398870169        0685             1            AG
                 422640049        0621             1            HS
                                  0754             1            DJ
                 422769049        0621             8            HS
     0685        391800049        0452             1            HS
                                  0481             1            AG
                 541270011        0751             1            DL
     0686        392090113        0685             1            AG
                 394610165        0682             1            TR
                 398300021        0990             1            CM
                 399040027        0685             1            AG
     0689        392820083        0685             1            AG




36     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                         Exhibit D – Page 15 of 24

                          CFC Codes attributed         Department Code
  OPM’s
           Duty Station   by NFC differing from         and frequencies
   CFC
                          OPM’s & frequencies            (if not 1 or all)
   0712     403550109        0839             8              FD
                             0189             1              TR
            404460119        0990             1              AG
   0715     403310101        0712             1              HS
            404780143        0839             2              FD
   0728     411650051        0990             2           AG & HS
   0729     411510011        0728             3              HS
            411670011        0728             4              AG
            411780019        0728             2          AG & Other
   0746     423500043        0990             1              HS
            428100027        0990             2              CM
   0748     424340075        0751             1              AG
   0749     420115119        0751             1              HS
            424053119        0751             1              DJ
   0751     420910017        0990             1              CM
            422725029        0990             1              CM
            424180071        0990             1              CM
            424520071        0746             1              HS
            425074091        0990             1             Other
            426540101        0990             3          HU & CM(2)
                             0626             2           DL & HU
                             0142             1              AG
                             0211             1              DL
   0754     421980129        0990             1              CM
            424290129        0990             1              CM
            424865053        0684             1              AG
            426600003        0990             2           DL & TR
                             0626             1             Other
                             0751             1              DJ
            428880125        0990             1              CM




                                                  REPORT 11401-0006-11         37
Exhibit D: Accounting Code Differences
                                                           Exhibit D – Page 16 of 24

                              CFC Codes attributed    Department Code and
     OPM’s
              Duty Station    by NFC differing from       frequencies
      CFC
                              OPM’s & frequencies         (if not 1 or all)
     0760      420630037         0990             1          CM
               421860079         0990             1          CM
               427460069         0751             1           DJ
                                 0754             1          TR
               429340079         0751             1          HS
               429510015         0751             1          AG
     0770      250140023         0754             1          TR
               250564023         0427             3           DJ
               440190007         0432             4           DJ
                                 0990             3       HS & DJ(2)
                                 0427             1           DJ
     0772      450410019         0990             1           DJ
     0773      450520063         0990             1          HS
               450520079         0774             2        DJ & TR
               451060083         0774             3          CM
               452880007         0990             1          CM
     0791      462250103         0792             3          HS
     0792      462450099         0990             2          FD
     0805      131080213         0211             2          AG
               470400065         0808             2           DJ
     0808      374900087         0655             1          AG
               470290163         0728             1          AG
               471300093         0839             1          FD
                                 0990             1           DJ
               472477171         0805             1          AG
     0809      470450157         0990             1          CM
               471620157         0839             3          FD
     0811      471200113         0506             2          AG
                                 0809             2        AG & DJ
               471760037         0351             1          TR
     0830      484140303         0832             1          TR
               484560329         0840             1          HS



38     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                         Exhibit D – Page 17 of 24

                          CFC Codes attributed          Department Code
  OPM’s
           Duty Station   by NFC differing from          and frequencies
   CFC
                          OPM’s & frequencies             (if not 1 or all)
   0831     480330453        0839              4               FD
                             0830              2               TR
                             0809              1               SB
                             0845              1               HS
                             0990              1              CM
            486780491        0852              2               HS
   0832     480150375        0990              1             Other
   0838     481550273        0845              2               HS
            481550355        0105              1               HS
                             0845              1               HS
                             0852              1               HS
            482290047        0846              8               HS
            483700273        0846              2               HS
                             0840              1               HS
   0839     481730113        0990              3           FD(2) & HS
            481840121        0374              1               HS
                             0905              1               HS
            482450439        0852              2              HU
                             0002              1              HU
                             0990              1               HS
            483420113        0990              1              CM
            484802085        0990              1              CM
   0840     350470013        0606              1              AG
            350735013        0990              1               HS
            350750017        0606              1              AG
            482190141        0832              1               DJ
                             0990              1              CM
            485525377        0051              1               HS




                                                   REPORT 11401-0006-11         39
Exhibit D: Accounting Code Differences
                                                         Exhibit D – Page 18 of 24

                               CFC Codes attributed     Department Code
     OPM’s
               Duty Station    by NFC differing from     and frequencies
      CFC
                               OPM’s & frequencies        (if not 1 or all)
     0845       483280201         0990              4    HS, TR & DJ(2)
                                  0162              1         TR
                                  0185              1         HS
                                  0839              1          DJ
                                  0846              1          DJ
                                  0852              1         HU
                485430245         0189              1         CM
                                  0990              1         HS
                486553201         0990              1         CM
                486660157         0990              1         CM
                487410481         0524              1         AG
     0846       484197215         0845              5     DJ(4) & HS
                485780427         0840              2         HS
     0847       482030323         0840              1         HS
                483080247         0846              2         HS
                483899479         0852              2         HS
                487660505         0846              4         HS
     0852       486090029         0990              2       DJ & HS
                                  0372              1         DL
                                  0831              1         DL
                                  0845              1         HS
                                  0846              1         HS
                                  0847              1         HS
                                  0851              1         TR
     0854       053810091         0072              7         HS
     0861       484160005         0371              1         AG
     0870       081040077         0141              2         AG
                081700085         0141              1         AG
                160890083         0540              1         AG
                161830083         0540              1         HS
                491350057         0524              1         TR
                                  0751              1         TR
                                  0839              1         TR
                491700035         0524              1         AG
                                  0990              1         DL
     0891       510440540         0900              2          DJ
                                  0990              2         CM
                512135079         0990              1         CM

40      REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                          Exhibit D – Page 19 of 24

                         CFC Codes attributed           Department Code
  OPM’s
          Duty Station   by NFC differing from           and frequencies
   CFC
                         OPM’s & frequencies               (if not 1 or all)
   0896    511180650        0897               1               TR
           512630830        0990               1              CM
   0897    375140091        0990               1               DJ
           511760710        0896               2            DJ & HS
           511970740        0990               1               HS
   0898    510690047        0990               4             Other
           511020630        0990               6              CM
           511393099        0990               1              CM
           511461137        0990               1              CM
           512010153        0990             275               DJ
                            0897               1               DJ
           512147033        0990               1              CM
           512303177        0990               1              CM
           512307179        0990               4              CM
           512570061        0990               2              CM
   0900    510520117        0990               1               HS
           512060760        0990               2            CM & TR
                            0831               1               TR
   0901    510180121        0990               1              CM
           510300520        0990               1               DJ
           510993019        0990               1              CM
           512100770        0900               2               DJ
                            0990               1              AG
   0905    511040187        0990               3           SM(2) & CM
           511190660        0990               1              CM
           512640840        0990              14               DJ
                            0839               1               HS
   0921    531255035        0923               1              CM
           531700009        0931               2               HS
           531730035        0923               1               DJ
           531775031        0925               1              AG
           532012035        0923               2            DJ & TR
   0922    531850005        0990               1             Other




                                                   REPORT 11401-0006-11          41
Exhibit D: Accounting Code Differences
                                                          Exhibit D – Page 20 of 24

                              CFC Codes attributed       Department Code
     OPM’s
               Duty Station   by NFC differing from       and frequencies
      CFC
                              OPM’s & frequencies          (if not 1 or all)
     0923       530170033         0931            45            HS
                531050033         0096             1            CM
                531960033         0925            11   AG(4), HS(5) & DJ(2)
                                  0990             6   DJ, HU, Other & HS(3)
                                  0931             1            TR
     0924       532110063         0923             1            DJ
                532111063         0923             1            HS
     0925       531795041         0728             1            AG
     0928       532460007         0924             6            AG
     0931       530050057         0772             1            HS
                530150073         0923             1            HS
                                  0990             1            CM
                530500061         0728             1            AG
     0940       540170081         0870             1            DL
     0941       540540033         0990             1            DJ
                542843049         0944             1            AG
     0943       541660003         0990             2         HS & TR
                                  0405             1            HS
     0944      541840061          0990             1            CM
     0957      552780025          0990             1            CM
     0964      551305133          0990             1            CM
               551962001          0481             1            DJ
               552405078          0957             1            AG
               552880073          0957             1            AG
               553100079          0957             1            AG
     0975      RQ0030000          0840             1            HS
               RQ0450000          0905             1            HS
               RQ0480000          0905             7            HS
                                  0185             2            TR
               RQ0900000          0905             1            HS
               RQ0930000          0905             9            HS
                                  0990             1            CM




42     REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                        Exhibit D – Page 21 of 24

                          CFC Codes attributed         Department Code
  OPM’s
           Duty Station   by NFC differing from         and frequencies
   CFC
                          OPM’s & frequencies             (if not 1 or all)
   0990     110010001        0905              6              HS
                             0249              4       DJ, DL, HS, & HU
                             0162              3              HU
                             0644              3              HS
                                                    TR, HS(2),HU(2), DL(4),
                             B**              14
                                                       AG(2) & Other(3)
                                                     FD, TR, HU, DJ, HS(2)
                            C***              9
                                                            & DL(3)
            240228033        0405              2              DJ
            240710033        0405              7              DJ
            240888033        0405              1              DJ
            241089033        0642              1              TR
                             0751              1              TR
            241175033        0751              1              TR
            241450031        0923              1              CM
            241675031        0405              1              DL
            510040510        0452              2              CM
            510100013        0975              3              DJ
                             0189              1              HS
                             0405              1              DL
                             0540              1              HS
                             0940              1              DL
           512034059         0391              1              HS
           512130107         0905             65              HS
           512345107         0846              1              HS
           AA0800000         0189              9              HS
           AF2000000         0852              1              DJ
           AQ6000000         0225             16       CM(12) & AG(4)
           BC4000000         0185              1              HS
           BD2000000         0189             10              HS
           BF2500000         0189              9              HS
           BF5000000         0189             15        HS(12) & DJ(3)
           CA1750000         0249              3              HS
           CA4550000         0192              1              HS
           CA7000000         0621             14              HS


                                                   REPORT 11401-0006-11        43
Exhibit D: Accounting Code Differences
                                                                        Exhibit D – Page 22 of 24

                                     CFC Codes attributed            Department Code
     OPM’s
                  Duty Station       by NFC differing from            and frequencies
      CFC
                                      OPM’s & frequencies                (if not 1 or all)
                   CA7700000              0995              26                 HS
                                          0846               1                 HS
                   FM5000000              0225               2                 AG
                    IT7000000             0728               1                 DJ
                   MX5100000              0105               1                 DJ
                   MX6100000              0847               1                 DJ
                   TD5500000              0975               1                 DJ
    Totals                                                1,969
*(A) Each of the following had one contribution from the 0427 CFC area attributed to it: CFCs
0162, 0524, 0571, 0626, 0839 and 0964.
**(B) Each of the following had two contributions from the 0990 CFC area attributed to it:
CFCs 0106, 0211, 0372, 0405, 0751, 0839 and 0900.
***(C) Each of the following had one contribution from the 0990 CFC area attributed to it:
CFCs 0096, 0185, 0189, 0524, 0621, 0682, 0770, 0845 and 0846.




44    REPORT 11401-0006-11
Exhibit D: Accounting Code Differences
                                                                                  Exhibit D – Page 23 of 24

AG ............................... Department of Agriculture

AM .............................. Agency for International Development

CM .............................. Department of Commerce

CT ............................... Commodity Futures Trading Commission

DJ ................................ Department of Justice

DL ............................... Department of Labor

FD ............................... Federal Deposit Insurance Corporation

HS ............................... Department of Homeland Security

HU ............................... Department of Housing and Urban Development

SB................................ Small Business Administration

SM ............................... Smithsonian Institution

TR ............................... Department of the Treasury




                                                                           REPORT 11401-0006-11         45
Exhibit D: Accounting Code Differences
                                                                           Exhibit D – Page 24 of 24

NFC Response:

For AUP step 9, OIG identified 1,969 differences between the OPM CFC code based on the
employees’ duty station and the NFC CFC code used for the employees’ CFC deductions. Of the
1,969 differences, 2 were associated with USDA Office of the Chief Financial Officer (agency 90)
employees, and 1 was associated with a USDA National Appeals Division (agency NA) employee.
For the 2012 CFC campaign, NFC processed CFC allotments for agency 90 and NA only. Details
for the agency 90 and NA differences are provided below:

       The agency 90 differences involved two employees whose duty station is in Washington,
       DC, which would be included under the CFC of the National Capital Area. However, their
       CFC contributions were sent to the CFC for the Greater New Orleans Area. We
       determined that this was most likely an NFC processing error.

       The agency NA difference involved a hearing officer, whose duty station is his home in
       Monroe, Louisiana, and his regional office is in Memphis, Tennessee. NA hearing officers
       are hired for a particular location allowing them to work from their homes across the U.S.,
       and they are responsible for reporting to their respective regional offices. According to
       OPM, if the employee’s duty station is in Monroe, Louisiana, the employee should be
       contributing to the Fort Polk-Central Louisiana CFC. However, because the employee's
       regional office is located in Memphis, Tennessee, which is included under the CFC of the
       MidSouth, the employee used the pledge form for the CFC of the MidSouth, and his CFC
       deductions were sent to the CFC of the MidSouth. NFC personnel correctly processed the
       employee’s CFC allotment based on the CFC pledge form provided by the agency.

Because NFC processed CFC allotments for only agency 90 and NA employees for the 2012
campaign, NFC is responsible for only 0.15 percent of the difference identified by OIG (3 of 1,969
differences). Other customer agencies’ personnel are responsible for processing CFC allotments
for their own employees, which represented the remaining 99.85 percent of the difference. From
the universe of Chief Financial Officer Act entities serviced by NFC, there were 83,123 employees
who had CFC deductions during pay period 3, 2013. The 1,969 differences identified by OIG
represented approximately 2.4 percent of employees with CFC deductions. The error rate for
NFC-processed CFC transactions was less than 1 percent (0.8 percent, or 3 of 380 agency 90 and
NA employees with CFC deductions in pay period 3, 2013).

Since the CFC is a once a year process, employees unfamiliar with the process may use the wrong
form, and agency personnel unfamiliar with the process may accept and process CFC forms from
employees who are in duty stations outside of the CFC campaign areas. This may be common for
agencies that have multiple duty locations. As such, we feel the root cause is human input/process
errors, and the findings should be subjected to acceptable normal input error rates.




46    REPORT 11401-0006-11
Exhibit E: Incorrect Combined Federal Campaign (CFC) Pledge
Forms
                                                                          Exhibit E – Page 1 of 1

Regarding the Office of Personnel Management’s Agreed-Upon Procedure 10, the following table
lists all instances in which the incorrect Combined Federal Campaign (CFC) pledge form was used
by the employee, including the Federal agency, the correct campaign and the campaign used.

                                             CFC
  Department              Correct per OPM                Per Pledge form used by employee
Agriculture        0051   Arizona CFC                 0052    Maricopa County CFC

                                                              Lincoln and Lancaster County
Agriculture        0552   Heart of Midlands CFC       0551    Area CFC
                                                              CFC of Monterey and Santa Cruz
Commerce           0105   So Cal CFC                  0117    Counties

Justice            0162   Greater Hartford CFC        0990    CFC of the National Capital Area
Justice            0194   EscaRosa CFC                0197    Suncoast CFC

Homeland
Security           0006   Southwest Alabama CFC       0500    Greater Mississippi CFC
Homeland
Security           0051   Arizona CFC                 0840    Sun Country CFC
Housing and
Urban                     CFC of Eastern                      Rhode Island and Southeastern
Development        0427   Massachusetts               0770    Massachusetts CFC
Small Business
Administration     0051   Arizona CFC                 0052    Maricopa County CFC
Small Business
Administration     0197   Suncoast CFC                0189    Atlantic Coast CFC

Treasury           0096   CFC of Greater SoCal        0990    CFC of the National Capital Area




                                                                REPORT 11401-0006-11           47
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
